Audit
Report
       DEFENSE LOGISTICS AGENCY ITEMS SUPPORTING
            OBSOLETE ARMY WEAPON SYSTEMS



Report No. D-2001-187                  September 27, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DIIP                  Defense Inactive Item Program
DLA                   Defense Logistics Agency
FLIS                  Federal Logistics Information System
LOGSA                 Logistics Support Activity
NSN                   National Stock Number
                      Office of the Inspector General, DoD
Report No. D-2001-187                                             September 27, 2001
  (Project No. D1999LD-0028.003)

                 Defense Logistics Agency Items Supporting
                      Obsolete Army Weapon Systems

                                   Executive Summary

Introduction. The Defense Logistics Agency (DLA) Defense Inactive Item Program
provides for the systematic elimination of inactive, or obsolete, national stock number
(NSN) items from the DLA supply system. Obsolete NSNs that are not deleted from
the DoD supply system needlessly consume cataloging and supply system files, machine
time, personnel resources, and warehouse space. DoD procedures require that the
Military Departments withdraw their interest as users of NSNs when the NSNs are no
longer required, and DLA procedures require that item managers review potentially
inactive NSNs for obsolescence. An NSN is considered potentially inactive if there
have been no wholesale demands for the NSN for the past 5 years and registered user
concurrence to delete the NSN has not been received by the integrated materiel
manager of the NSN. As of March 2000, there were 69,608 NSNs, excluding the
clothing and textile, medical, and subsistence commodities, in DLA supply files that
were identified as being unique to an Army weapon system for which the “date of last
demand field” indicated no demand for 5 years or was blank.

Objectives. Our overall objective was to evaluate the processes that the Military
Departments and DLA used to identify and delete items in weapon system files that had
obsolete NSNs. This report discusses procedures used to identify and delete
DLA-managed NSNs that support obsolete Army weapon systems. In addition, we
reviewed management control programs as they applied to the audit objective. This
report also discusses the Army re-registering as a user of DLA-managed NSNs that
DLA had identified as obsolete because of no user interest. This is the fourth in a
series of reports about obsolete national stock numbered items in the DoD supply
system. Previous reports (listed in Appendix A) discuss obsolete NSNs in Navy
weapon system files, potentially obsolete NSNs in DLA supply files, and NSNs that
were excluded from the DLA Defense Inactive Item Program.

Results. DLA supply files contained NSNs that could have been deleted because the
NSNs supported obsolete Army weapon systems. The DLA supply files also contained
inaccurate data regarding users of NSNs. In a judgmental sample of 60 of 469 Army
weapon systems in the DLA weapon system program file and 316 of the
4,047 DLA-managed NSNs associated with those 60 systems, 15 of the systems and
119 of the NSNs were obsolete to Army requirements. DLA supply management data
showed that the Army was a registered user of 86 of the 119 NSNs that were obsolete
to Army requirements. As a result, DLA was incurring unnecessary supply
management costs to maintain cataloging and supply files and inventory for the obsolete
NSNs. In addition, NSNs were not considered for inclusion in the DLA Defense
Inactive Item Program in a timely manner. Of the 119 NSNs, 43 NSNs could be
deleted from the DLA supply system if Defense Inactive Item Program procedures were
either followed or revised (Finding section). See Appendix A for a discussion of our
review of the management control programs.

Army action to re-register as a user of DLA-managed NSNs was proper. The Army
had erroneously notified DLA to delete 5,683 NSNs that had not been reviewed for
obsolescence by Army personnel. The Army later re-registered as a user of those
NSNs, which appropriately precluded DLA from deleting NSNs that might have had
current or future requirements (Appendix B).

Summary of Recommendations. We recommend that the Director, DLA, establish
controls to ensure that weapon system items are included in the Defense Inactive Item
Program process and revise Defense Inactive Item Program procedures to include all
logistics reassignment DLA NSNs in the Defense Inactive Item Program process. We
recommend that the Commanding General, Army Materiel Command, establish
controls over Army actions to remove obsolete NSNs from the DLA weapon system
program file and to remove the Army as a registered user of DLA-managed NSNs that
are no longer required.

Management Comments. DLA generally concurred with the recommendations. DLA
stated that its policy does not allow for automatic exclusions of items solely because the
items have weapon systems coding. However, the supply centers have the option to
inhibit items with proper justification. DLA also concurred that logistics reassignments
between DLA supply centers should be included in the Defense Inactive Item Program
process, but nonconcurred that logistics reassignments from the Military Departments
should be included in the process. The Army did not comment on the draft report. See
the Finding section for additional discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

Audit Response. The DLA comments were partially responsive. We disagree that
logistics reassignments from the Military Departments should not be included in the
Defense Inactive Item Program process. We request that DLA reconsider its position
and provide additional comments on the final report. We also request that the Army
provide comments on the final report. All comments should be provided by
October 28, 2001.




                                            ii
Table of Contents

Executive Summary                                     i


Introduction
     Background                                       1
     Objectives                                       2

Finding
     Items Supporting Obsolete Army Weapon Systems   3

Appendixes
     A. Audit Process
         Scope and Methodology                        9
         Management Control Program Review           10
         Prior Coverage                              11
     B. Re-Registration of User Interest             13
     C. Report Distribution                          14

Management Comments
     Defense Logistics Agency                        16
Background

            Materiel Management. Defense Logistics Agency (DLA) supply centers are
            assigned the primary responsibility for materiel management for a group of
            items used by either a particular Service or by DoD as a whole. Materiel
            management responsibilities include cataloging,1 requirements computation,
            procurement direction, distribution management, and disposal direction. DLA
            supply centers manage more than 4.1 million national stock number (NSN)
            items and support more than 1,400 weapon systems.

            DoD Guidance. DoD Manual 4140.32-M, “Defense Inactive Item Program
            (DIIP),” August 1992, states that items no longer needed to support the mission
            of DoD organizations, other Federal agencies, or the International Logistics
            Program, needlessly consume machine time, personnel resources, and
            warehouse space with serious effect on the total supply system. DoD managers
            at every level are expected to place serious and continuous emphasis on the
            purging of unneeded items from the materiel inventory and active catalog files.
            DLA is assigned the responsibilities of administering the DIIP and reviewing
            and evaluating the operations of the DIIP on a continuous basis.

            DoD Manual 4100.39-M. “Federal Logistics Information System (FLIS)
            Procedures Manual,” April 1999, provides procedures for DoD organizations to
            interface with the FLIS. The FLIS is a management system designed to collect,
            store, process, and provide NSN logistics information. Included in the FLIS is
            information concerning registered users of NSNs.

            DLA Procedures. DLA Manual 4140.2, “Supply Operations Manual,”
            July 1, 1999, provides policy, uniform guidance, and procedures for DLA
            supply centers to systematically review and eliminate inactive items of supply
            from the DLA supply system.

            DLA Manual 4140.3, “Materiel Management Manual,” August 1988, provides
            guidance for the management of items in the DLA weapon system support
            program. The overall objective of the program is to enhance the readiness and
            sustainability for the Military Departments by providing the maximum level of
            support for DLA-managed NSNs with a weapon system application. To manage
            the program, DLA maintains a weapon system program file of NSNs associated
            with the Military Department weapon systems.


1
    The act of naming, classifying, describing, and numbering each item repetitively used, purchased,
    stocked, or distributed so as to distinguish each item from every other item. Also included is the
    maintenance of information related to the item and the dissemination of that information to item users.



                                                       1
     Potentially Inactive and Obsolete NSNs. A potentially inactive NSN is
     defined in DoD Manual 4140.32-M as an item that has had no wholesale supply
     issues for the past 5 years and registered user concurrence to delete the NSN has
     not been received by the integrated materiel manager of the NSN. An NSN is
     considered obsolete if the NSN is inactive and there are no current or future
     requirements anticipated by any registered user or the integrated materiel
     manager. As of March 2000, there were 69,608 NSNs, excluding the clothing
     and textile, medical, and subsistence commodities, in DLA supply files that
     were identified as being unique to an Army weapon system for which the “date
     of last demand” field indicated no demand for 5 years or was blank.


Objectives

     Our overall objective was to evaluate the processes that the Military
     Departments and DLA used to identify and delete items in weapon system files
     that had obsolete NSNs. This report discusses procedures used to identify and
     delete DLA-managed NSNs that support obsolete Army weapon systems. In
     addition, we reviewed management control programs as they applied to the audit
     objective. This report also discusses the Army re-registering as a user of
     DLA-managed NSNs that DLA had identified as obsolete because of no user
     interest (Appendix B). This is the fourth in a series of reports about obsolete
     national stock numbered items in the DoD supply system. Previous reports in
     the series discuss obsolete NSNs in Navy weapon system files, potentially
     obsolete NSNs in DLA supply files, and NSNs that were excluded from the
     DLA DIIP. See Appendix A for a discussion of the audit scope and
     methodology, our review of the management control program, and prior audit
     coverage.




                                         2
            Items Supporting Obsolete Army
            Weapon Systems
            DLA supply files contained NSNs that could have been deleted because
            the NSNs supported obsolete Army weapon systems. The DLA supply
            files also contained inaccurate data regarding users of NSNs. In a
            judgmental sample of 60 of 469 Army weapon systems in the DLA
            weapon system program file and 316 of the 4,047 DLA-managed NSNs
            associated with those 60 systems, 15 of the systems and 119 of the NSNs
            were obsolete to Army requirements. DLA supply management data
            showed that the Army was a registered user of 86 of the 119 NSNs that
            were obsolete to Army requirements. NSNs could have been deleted
            from the supply system, but were not, because DLA did not take timely
            actions to delete obsolete NSNs, DIIP procedures excluded certain NSNs
            from the DIIP process, and the Army either did not delete obsolete
            NSNs from the DLA weapon system program file or did not withdraw
            itself as a registered user of obsolete NSNs. As a result, DLA was
            incurring unnecessary supply management costs to maintain cataloging
            and supply files and inventory for the obsolete NSNs. In addition, NSNs
            were not considered for inclusion in the DLA DIIP in a timely manner.
            Of the 119 NSNs, 43 could be deleted from the DLA supply system if
            DIIP procedures were either followed or revised.


Identification and Review of Potentially Inactive NSNs

     DLA. Each year, the DLA Standard Automated Materiel Management System
     screens all NSNs in the DLA supply centers’ supply control files to determine
     the NSNs that are eligible for the DIIP. Criteria for determining NSNs eligible
     for the DIIP are contained in DLA Manual 4140.2. After eligible NSNs have
     been identified, the Standard Automated Materiel Management System screens
     the NSNs against catalog and supply data to determine whether they should be
     excluded from the DIIP. NSNs are excluded from the DIIP for various reasons,
     including when an NSN is no longer authorized for procurement. NSNs that are
     included in the DIIP are referred to registered users, primarily the Military
     Departments. The Military Departments are required to review the NSNs
     referred by DLA and notify the supply centers to either delete or retain the
     NSNs.




                                        3
    Army. The Army uses the DIIP process to notify DLA that an NSN is obsolete
    to Army requirements. The Army also notifies DLA when specific weapon
    systems become obsolete, but DLA uses that information only to maintain its
    weapon system program file, not to delete NSNs from the supply system.


Obsolete NSNs

    DLA supply files contained NSNs that could have been deleted because the
    NSNs supported obsolete Army weapon systems. In a judgmental sample of
    60 of the 469 Army weapon systems in the DLA weapon system program file
    and 316 DLA-managed NSNs associated with those 60 systems, Army
    personnel informed us that 15 of the systems and 119 of the NSNs were obsolete
    to Army requirements. Of the 119 NSNs, 71 could not be deleted from the
    supply system because the NSNs were newly entered into the system, the NSNs
    had registered users other than the Army, or the Army re-registered as a user.
    For the remaining 48 NSNs, 5 NSNs were deleted from the supply system
    during the audit; 43 NSNs could be deleted from the DLA supply system if
    DIIP procedures were either followed or revised.

           •   Twelve NSNs were not deleted because they were not reviewed by
               DLA item managers or they were excluded from the DIIP.

           •   Three NSNs were not deleted because they were coded as being used
               on a weapon system.

           •   Ten NSNs were not deleted because they had an inactive item review
               date after the FY 2000 and FY 2001 DIIP.

           •   Three NSNs were not deleted because they had supply status codes
               that excluded them from the DIIP.

           •   Fifteen NSNs were not deleted because they were included in the
               FY 2001 DIIP and the Army computer system response to DLA was
               to retain the NSNs, even though Army personnel had stated that the
               NSNs were obsolete to Army requirements.

    DLA DIIP Deficiencies. Of the 43 NSNs that could be deleted, 12 NSNs were
    not deleted from the supply system because either DLA item managers were not
    taking timely actions to review potentially inactive NSNs or NSNs were
    erroneously excluded from the DIIP. The 12 NSNs were identified in DLA




                                       4
supply records as either potentially inactive or inhibited from being included in
the DIIP. Recent Inspector General, DoD, audit reports (listed in Appendix A)
address the timely review of NSNs and NSNs excluded from the DIIP.

NSNs Used on a Weapon System. DLA item managers were reluctant to
delete 3 of the 43 obsolete NSNs because the 3 were coded as being used on a
weapon system. Three DLA item managers stated that they would not delete
obsolete NSNs if the NSNs were coded in DLA files as being used on a weapon
system. The position of the DLA item managers was not consistent with DLA
guidance. DLA Manual 4140.2 states that NSNs will not be excluded from the
DIIP process just because they are included in a formal program, such as a
weapon system program.

Inaction by the Army to submit transactions to DLA to remove obsolete NSNs
from the DLA weapon system program file contributed to the item managers’
reluctance to delete the NSNs. To add, change, or remove an NSN from the
DLA weapon system program file, the Army is required to submit a Weapon
Item Data Transaction to DLA. Of the 43 obsolete NSNs, 32 were coded as
being used on a weapon system. In a judgmental sample of 20 of the 32 NSNs,
15 NSNs were coded in the DLA files as being used on a weapon system, but
Army item managers stated that those weapon systems were obsolete. If the
Army had notified DLA to remove the NSNs from the weapon system program
file, DLA item managers would have had more assurance that an NSN was
obsolete and may have taken the necessary action to delete the NSNs.

Inactive Item Review Date. Of the 43 NSNs, 10 were not deleted from the
supply system because the NSNs had an inactive item review date that was after
the date used by DLA to select NSNs for the FY 2000 and FY 2001 DIIP. The
inactive item review date is established either when an NSN enters the supply
system or when item management responsibilities are transferred from one
integrated materiel manager to another (logistics reassignment). If an NSN is a
new item, the review date is 7 years from the date the item entered the supply
system. If the NSN is assigned to a DLA supply center as the result of a
logistics reassignment, the review date is either 7 years from the date the item
originally entered the supply system or 2 years from the date the supply center
assumed materiel management responsibility, whichever is greater.

The DLA policy on NSNs subjected to logistics reassignment could effectively
extend the DIIP review date indefinitely, excluding those NSNs from the DIIP.
The 10 NSNs had been excluded from the DIIP because the inactive item review
dates (ranging from November 2001 through May 2004) were after the date
used by DLA to select NSNs for the DIIP. The 10 NSNs were logistics
reassignments between the Military Departments and DLA or among DLA
supply centers. The review dates for those NSNs had been extended, which


                                    5
           excluded them from the DIIP. For example, the supply system entry dates for
           the 10 NSNs showed that the NSNs had entered the DoD supply system from
           1963 through 1985 and there was no record of any demand for those NSNs in
           the DLA files. Of the 69,608 NSNs with no demand over 5 years, 15,082 were
           logistics reassignments and had not been included in either the FY 2000 or
           FY 2001 DIIP. DLA could avoid excluding obsolete NSNs from the DIIP if it
           did not extend the 7-year review date of NSNs subjected to logistics
           reassignment.

           Supply Status Codes. Of the 43 NSNs, 3 had been excluded from the DIIP
           because DLA Manual 4140.2 excludes certain supply status codes.2 The supply
           status codes of the three NSNs indicated either that the NSNs were terminal (not
           authorized for future procurement) or that the primary method of supply was
           local purchase. Of the 69,608 NSNs, 3,709 NSNs had been excluded from the
           DIIP because of their assigned supply status codes. We plan to evaluate the
           appropriateness of excluding NSNs from the DIIP because of supply status
           codes in a future audit.

           FY 2001 DIIP. Of the 43 NSNs, 15 NSNs were included in the FY 2001 DIIP.
           During the audit, Army weapon system program managers stated that the NSNs
           were obsolete to Army requirements. However, the Army computer system
           response to the DLA DIIP was that the 15 NSNs should be retained. Because
           the Army computer system response to the DIIP was inconsistent with the
           position of the Army weapon system program managers, it appeared that the
           15 NSNs should have been deleted. We plan to further evaluate the
           appropriateness of the Army computer system response to the DIIP in a future
           audit.


Withdrawal of User Interest

           DLA supply files contained inaccurate data regarding users of NSNs. The
           Army had not withdrawn itself as a registered user of NSNs that it no longer
           required. FLIS records showed the Army as a registered user for 86 of the
           119 NSNs that were obsolete to Army requirements. In accordance with DoD
           Manual 4100.39, when a registered user no longer has a requirement for an
           NSN, the user must submit a transaction requesting withdrawal of user interest
           that is processed through the FLIS. The procedures allow registered users to
           withdraw their interest in an NSN at any time. It is important that users
           withdraw their interest in a timely manner because DLA screens NSNs that

2
    Status codes in supply records indicate the normal means of supply and stockage or nonstockage of the
    NSN.



                                                      6
    qualify for the DIIP through the FLIS to determine whether there are any
    registered users of the NSNs. If there are no registered users of the NSNs, they
    are not sent to the Military Departments, they are evaluated by DLA for
    obsolescence. Sending items to registered users who neglected to withdraw
    their interest needlessly expends limited time and resources.


Conclusion

    If the DIIP is to work as intended, DLA and the Army must take timely and
    appropriate actions to identify obsolete NSNs and DLA must take timely actions
    to delete obsolete NSNs from its supply system. Inaction by DLA and the
    Army caused DLA to incur unnecessary supply management costs to maintain
    cataloging and supply files and inventory for the obsolete NSNs. In addition,
    NSNs were not considered for inclusion in the DLA DIIP in a timely manner.
    Of the 316 judgmentally sampled NSNs, 119 were obsolete to Army
    requirements and 43 of the 119 could be deleted from the DLA supply system if
    DIIP procedures were either followed or revised. Although the audit identified
    only a small number of NSNs that were obsolete, correcting the conditions
    identified by the audit should identify a significant number of potentially
    obsolete NSNs (up to the 15,082 logistics reassignment NSNs that were not
    included in the DIIPs) and should improve the DIIP process (more accurate
    registered user and weapon system data).


Recommendations, Management Comments, and Audit
  Response

    1. We recommend that Director, Defense Logistics Agency:

           a. Establish controls to ensure that the item managers properly
    include national stock number items associated with weapon systems in the
    Defense Inactive Item Program.

           b. Revise the Defense Inactive Item Program policy to include
    national stock number items subjected to logistics reassignment in the DIIP
    process 7 years after the items originally entered the DoD supply system.

    Defense Logistics Agency Comments. DLA concurred that its policy does not
    allow for automatic exclusion of items solely because the items have weapon
    systems coding. However, the DLA supply centers have the option to inhibit
    items from the DIIP with proper justification. DLA also concurred that logistics


                                        7
reassignments between DLA supply centers should be included in the DIIP.
However, DLA nonconcurred that items subjected to logistics reassignments
between the Military Departments and DLA should be included in the DIIP
process. DLA stated that, during the consumable item transfer, it had agreed to
support the items transferred to DLA for 2 years after the transfer to preclude
disposing of critical assets prematurely.

Audit Response. The DLA comments were generally responsive; however, we
disagree with its comments that logistics reassignments between the Military
Departments and DLA should not be included in the DIIP process. We take no
exception with the agreement for DLA to support the items for 2 years after the
transfer. However, there were about 903,000 items transferred to DLA during
the consumable item transfer. Of the 903,000 items, 760,000 (84 percent) were
transferred during a 4-year period ending November 1995 and 143,000 were
transferred during the period January 1996 through November 1998. It has
been almost 6 years since the bulk of the items were transferred and almost
3 years since the total transfer was completed; the 2-year support period has
expired and is not a valid reason to exclude consumable item transfer NSNs that
have been in the supply system for more than 7 years from the DIIP. The intent
of our recommendation was to address all logistics reassignment NSNs,
regardless of whether or not the items were included in the consumable item
transfer. We request that DLA reconsider its position and provide additional
comments in response to the final report.

2. We recommend that the Commanding General, Army Materiel
Command, establish controls to ensure that Army organizations submit
transactions to the Defense Logistics Agency to:

       a. Remove obsolete national stock number items from the Defense
Logistics Agency weapon system program file.

       b. Remove the Army as a registered user of national stock number
items in the Federal Logistics Information System when the items are no
longer required.

Army Comments. The Army did not comment on a draft copy of this report.
We request that the Army provide comments in response to the final report.




                                   8
Appendix A. Audit Process

Scope and Methodology

    Work Performed. We evaluated the rationale of the Army re-registering as a
    user of 5,683 DLA-managed NSNs in September 1999 that DLA had previously
    identified as obsolete because of no user interest. We discussed the
    re-registration with DLA and Army personnel and reviewed cataloging and
    supply records that were dated from September 1999 through February 2001.

    We reviewed the process that DLA and the Army used to identify and delete
    DLA-managed NSNs that support obsolete Army weapon systems. As of
    March 2000, there were 69,608 NSNs, excluding the clothing and textile,
    medical, and subsistence commodities, in DLA supply files that were identified
    as being unique to an Army weapon system for which the date of last demand
    field indicated no demand for 5 years or was blank. We judgmentally selected
    60 of 469 Army weapon systems in the DLA weapon system program file to
    determine whether the systems were obsolete. We also judgmentally selected
    for review 316 of the 4,047 DLA-managed NSNs associated with the 60 systems
    to determine whether the NSNs were obsolete. For each of the 60 systems and
    316 NSNs, we interviewed DLA and Army personnel to determine whether the
    systems or NSNs were obsolete. The documents we reviewed included DLA
    standard operating procedures; DoD, DLA, and Army guidance; catalog files;
    and supply records. The documents were dated from August 1988 through
    September 2001.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure.

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)
           FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (01-DoD-2.3) FY 2001



                                        9
           Performance Measure 2.3.6: Disposal of excess National Defense
           Stockpile inventory and reduction of supply inventory. (01-DoD-2.3.6)

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD Inventory
    Management and DoD Infrastructure Management high-risk areas.

    Use of Computer-Processed Data. We relied on computer-processed data
    provided by DLA to identify potentially inactive NSNs unique to Army weapon
    systems. We did not perform a formal reliability assessment of the computer-
    processed data. However, to the extent that we reviewed the data, we did not
    find any errors that would preclude use of the data to meet the audit objectives
    or that would change the conclusions in this report.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from March through September 2001, in accordance with
    generally accepted Government auditing standards except that we were unable to
    obtain an opinion on our system of quality control. The most recent external
    quality control review was withdrawn on March 15, 2001, and we will undergo
    a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA and Army management controls over reviewing NSNs that
    were identified as potentially inactive. We reviewed DLA and Army
    self-evaluations applicable to those controls.




                                       10
     Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
     we identified material management control weaknesses at DLA and the Army.
     DLA was not taking timely actions to delete obsolete NSNs from its supply
     system. The Army was not withdrawing its user interest when there were no
     future requirements for DLA-managed NSNs that supported obsolete Army
     weapon systems. Recommendation 1. in this report, if implemented, in addition
     to the recommendations made in Inspector General, DoD, Report
     No. D-2001-131, “Items Excluded From the Defense Logistics Agency Defense
     Inactive Item Program,” and Report No. D-2001-035, “Management of
     Potentially Inactive Items at the Defense Logistics Agency,” will correct the
     DLA material weakness identified by this audit. Recommendation 2. in this
     report, if implemented, will correct the Army material weakness. Correction of
     the material management control weaknesses could result in potential monetary
     benefits. A copy of the report will be provided to the senior officials
     responsible for management controls in DLA and the Army.

     Adequacy of Management’s Self-Evaluation. DLA did not identify reviewing
     the DIIP for NSNs associated with weapon systems or subject to logistics
     reassignments as assessable units and, therefore, did not identify or report the
     material management control weakness identified by the audit.

     The Army did not identify withdrawal of user interest in NSNs supporting
     obsolete weapon systems as an assessable unit and, therefore, did not identify
     the material management control weakness identified by the audit.


Prior Coverage

     During the past 5 years, the Inspector General, DoD, and the Air Force
     Inspection Agency have issued reports discussing obsolete NSNs. Unrestricted
     Inspector General, DoD, reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.


Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-131, “Items Excluded From the
     Defense Logistics Agency Defense Inactive Item Program,” May 31, 2001

     Inspector General, DoD, Report No. D-2001-035, “Management of Potentially
     Inactive Items at the Defense Logistics Agency,” January 24, 2001




                                        11
     Inspector General, DoD, Report No. D-2000-185, “Allegations to the Defense
     Hotline Concerning Management of Obsolete Reparable Items,”
     September 7, 2000


Air Force
     Air Force Inspection Agency, Report No. PN 00-502, “Purging Obsolete
     Aircraft Major-End Items,” September 19, 2000




                                      12
Appendix B. Re-Registration of User Interest

User Interest

     Re-Registered NSNs. Inspector General, DoD, Report No. D-2001-035,
     “Management of Potentially Inactive Items at the Defense Logistics Agency,”
     January 24, 2001, reported that DLA did not take timely actions to review
     potentially inactive (all users had withdrawn interest) NSNs to determine
     whether the NSNs should be deleted from the DLA supply system. As a result
     of the audit, the Defense Supply Center Philadelphia developed a computer
     program to expedite the review process and deleted 20,385 of 26,424 NSNs that
     had been in a review status at the Center more than 90 days. Of the 6,039
     NSNs that were not deleted, the Army had re-registered as a user of
     5,683 NSNs.

     The re-registration of user interest, however, was proper. Personnel at the
     Army Logistics Support Activity (LOGSA), Redstone Arsenal, Alabama, stated
     that there was a computer problem in May 1999 that resulted in the Army
     sending DIIP transactions to DLA to delete the 5,683 NSNs without providing
     the users of the NSNs the opportunity to review the NSNs for potential
     requirements. LOGSA personnel subsequently identified the computer problem
     and, in conjunction with the Defense Logistics Information Service,
     re-registered the Army as a user of the NSNs.

     If the Army had not re-registered as a user of the NSNs, DLA could have
     deleted NSNs with either current or future requirements. The NSNs will be
     subject to future DLA DIIP processes, which will give Army users an
     opportunity to review the NSNs for obsolescence.




                                       13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commanding General, Army Materiel Command
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Supply Center Columbus
  Commander, Defense Supply Center Philadelphia
  Commander, Defense Supply Center Richmond

Non-Defense Federal Organization
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         15
Defense Logistics Agency Comments




                  16
       Final Report
        Reference




     Page 13




17
Final Report
 Reference




Pages 11-12




               18
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Tilghman A. Schraden
Terrance P. Wing
John W. Henry
James J. McDermott
David R. Hasz
Paul Hollister
Robert M. Paluck
Paula A. Richardson
Herman Tolbert
